No. 19-152
IN THE SUPREME COURT OF THE UNITED STATES

AMARIN PHARMA, INC., ET AL., PETITIONERS
V.
INTERNATIONAL TRADE COMMISSION, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
BRIEF
FOR THE FEDERAL RESPONDENT IN OPPOSITION, via e-mail and firstthe
class mail, postage prepaid, this 4TH day of November, 2019.
ISee Attached Service Listj
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5647
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 4, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 4, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs(USDOJ.gov. Ms.
Goodwin's phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

19-0 152
AMARIN PHARMA, INC., ET AL.
ITC,ETAL.

ASHLEY C. PARRISH
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-737-0500
APARRISH@KSLW.COM

